8 U.S.C. § 1357 – Powers of immigration officers and employees
(a) Powers without warrant
Any officer or employee of the Service authorized under regulations prescribed by the
Attorney General shall have power without warrant—
(1) to interrogate any alien or person believed to be an alien as to his right to be or to
remain in the United States;
(2) to arrest any alien who in his presence or view is entering or attempting to enter the
United States in violation of any law or regulation made in pursuance of law regulating
the admission, exclusion, expulsion, or removal of aliens, or to arrest any alien in the
United States, if he has reason to believe that the alien so arrested is in the United States
in violation of any such law or regulation and is likely to escape before a warrant can
be obtained for his arrest, but the alien arrested shall be taken without unnecessary delay
for examination before an officer of the Service having authority to examine aliens as
to their right to enter or remain in the United States;
(3) within a reasonable distance from any external boundary of the United States, to
board and search for aliens any vessel within the territorial waters of the United States
and any railway car, aircraft, conveyance, or vehicle, and within a distance of twentyfive miles from any such external boundary to have access to private lands, but not
dwellings, for the purpose of patrolling the border to prevent the illegal entry of aliens
into the United States;
(4) to make arrests for felonies which have been committed and which are cognizable
under any law of the United States regulating the admission, exclusion, expulsion, or
removal of aliens, if he has reason to believe that the person so arrested is guilty of such
felony and if there is likelihood of the person escaping before a warrant can be obtained
for his arrest, but the person arrested shall be taken without unnecessary delay before
the nearest available officer empowered to commit persons charged with offenses
against the laws of the United States; and
(5) to make arrests—
(A) for any offense against the United States, if the offense is committed in the
officer’s or employee’s presence, or
(B) for any felony cognizable under the laws of the United States, if the officer or

65

APPENDIX

employee has reasonable grounds to believe that the person to be arrested has
committed or is committing such a felony,
if the officer or employee is performing duties relating to the enforcement of the
immigration laws at the time of the arrest and if there is a likelihood of the person
escaping before a warrant can be obtained for his arrest.
Under regulations prescribed by the Attorney General, an officer or employee of the
Service may carry a firearm and may execute and serve any order, warrant, subpoena,
summons, or other process issued under the authority of the United States. The authority
to make arrests under paragraph (5)(B) shall only be effective on and after the date on
which the Attorney General publishes final regulations which (i) prescribe the categories
of officers and employees of the Service who may use force (including deadly force) and
the circumstances under which such force may be used, (ii) establish standards with respect
to enforcement activities of the Service, (iii) require that any officer or employee of the
Service is not authorized to make arrests under paragraph (5)(B) unless the officer or
employee has received certification as having completed a training program which covers
such arrests and standards described in clause (ii), and (iv) establish an expedited, internal
review process for violations of such standards, which process is consistent with standard
agency procedure regarding confidentiality of matters related to internal investigations.
(b) Administration of oath; taking of evidence
Any officer or employee of the Service designated by the Attorney General, whether
individually or as one of a class, shall have power and authority to administer oaths and to
take and consider evidence concerning the privilege of any person to enter, reenter, pass
through, or reside in the United States, or concerning any matter which is material or
relevant to the enforcement of this chapter and the administration of the Service; and any
person to whom such oath has been administered, (or who has executed an unsworn
declaration, certificate, verification, or statement under penalty of perjury as permitted
under section 1746 of Title 28) under the provisions of this chapter, who shall knowingly
or willfully give false evidence or swear (or subscribe under penalty of perjury as permitted
under section 1746 of Title 28) to any false statement concerning any matter referred to in
this subsection shall be guilty of perjury and shall be punished as provided by section 1621
of Title 18.
(c) Search without warrant
Any officer or employee of the Service authorized and designated under regulations
prescribed by the Attorney General, whether individually or as one of a class, shall have

66

APPENDIX

power to conduct a search, without warrant, of the person, and of the personal effects in
the possession of any person seeking admission to the United States, concerning whom
such officer or employee may have reasonable cause to suspect that grounds exist for denial
of admission to the United States under this chapter which would be disclosed by such
search.
(d) Detainer of aliens for violation of controlled substances laws
In the case of an alien who is arrested by a Federal, State, or local law enforcement official
for a violation of any law relating to controlled substances, if the official (or another
official)—
(1) has reason to believe that the alien may not have been lawfully admitted to the
United States or otherwise is not lawfully present in the United States,
(2) expeditiously informs an appropriate officer or employee of the Service authorized
and designated by the Attorney General of the arrest and of facts concerning the status
of the alien, and
(3) requests the Service to determine promptly whether or not to issue a detainer to
detain the alien,
the officer or employee of the Service shall promptly determine whether or not to issue
such a detainer. If such a detainer is issued and the alien is not otherwise detained by
Federal, State, or local officials, the Attorney General shall effectively and expeditiously
take custody of the alien.
(e) Restriction on warrantless entry in case of outdoor agricultural operations
Notwithstanding any other provision of this section other than paragraph (3) of subsection
(a), an officer or employee of the Service may not enter without the consent of the owner
(or agent thereof) or a properly executed warrant onto the premises of a farm or other
outdoor agricultural operation for the purpose of interrogating a person believed to be an
alien as to the person’s right to be or to remain in the United States.
(f) Fingerprinting and photographing of certain aliens
(1) Under regulations of the Attorney General, the Commissioner shall provide for the
fingerprinting and photographing of each alien 14 years of age or older against whom
a proceeding is commenced under section 1229a of this title.

67

APPENDIX

(2) Such fingerprints and photographs shall be made available to Federal, State, and
local law enforcement agencies, upon request.
(g) Performance of immigration officer functions by State officers and employees
(1) Notwithstanding section 1342 of Title 31, the Attorney General may enter into a
written agreement with a State, or any political subdivision of a State, pursuant to which
an officer or employee of the State or subdivision, who is determined by the Attorney
General to be qualified to perform a function of an immigration officer in relation to
the investigation, apprehension, or detention of aliens in the United States (including
the transportation of such aliens across State lines to detention centers), may carry out
such function at the expense of the State or political subdivision and to the extent
consistent with State and local law.
(2) An agreement under this subsection shall require that an officer or employee of a
State or political subdivision of a State performing a function under the agreement shall
have knowledge of, and adhere to, Federal law relating to the function, and shall contain
a written certification that the officers or employees performing the function under the
agreement have received adequate training regarding the enforcement of relevant
Federal immigration laws.
(3) In performing a function under this subsection, an officer or employee of a State or
political subdivision of a State shall be subject to the direction and supervision of the
Attorney General.
(4) In performing a function under this subsection, an officer or employee of a State or
political subdivision of a State may use Federal property or facilities, as provided in a
written agreement between the Attorney General and the State or subdivision.
(5) With respect to each officer or employee of a State or political subdivision who is
authorized to perform a function under this subsection, the specific powers and duties
that may be, or are required to be, exercised or performed by the individual, the duration
of the authority of the individual, and the position of the agency of the Attorney General
who is required to supervise and direct the individual, shall be set forth in a written
agreement between the Attorney General and the State or political subdivision.
(6) The Attorney General may not accept a service under this subsection if the service
will be used to displace any Federal employee.
(7) Except as provided in paragraph (8), an officer or employee of a State or political

68

APPENDIX

subdivision of a State performing functions under this subsection shall not be treated as
a Federal employee for any purpose other than for purposes of chapter 81 of Title 5
(relating to compensation for injury) and sections 2671 through 2680 of Title 28
(relating to tort claims).
(8) An officer or employee of a State or political subdivision of a State acting under
color of authority under this subsection, or any agreement entered into under this
subsection, shall be considered to be acting under color of Federal authority for
purposes of determining the liability, and immunity from suit, of the officer or
employee in a civil action brought under Federal or State law.
(9) Nothing in this subsection shall be construed to require any State or political
subdivision of a State to enter into an agreement with the Attorney General under this
subsection.
(10) Nothing in this subsection shall be construed to require an agreement under this
subsection in order for any officer or employee of a State or political subdivision of a
State—
(A) to communicate with the Attorney General regarding the immigration status of
any individual, including reporting knowledge that a particular alien is not lawfully
present in the United States; or
(B) otherwise to cooperate with the Attorney General in the identification,
apprehension, detention, or removal of aliens not lawfully present in the United
States.
(h) Protecting abused juveniles
An alien described in section 1101(a)(27)(J) of this title who has been battered, abused,
neglected, or abandoned, shall not be compelled to contact the alleged abuser (or family
member of the alleged abuser) at any stage of applying for special immigrant juvenile
status, including after a request for the consent of the Secretary of Homeland Security under
section 1101(a)(27)(J)(iii)(I) of this title.

69

APPENDIX

